   June 24, 2002




Acquisition

V-22 Osprey Hydraulic System
(D-2002-114)




              Department of Defense
          Office of the Inspector General
Quality              Integrity        Accountability
  Additional Copies

  To obtain additional copies of this report, visit the Web site of the Inspector
  General of the Department of Defense at www.dodig.osd.mil/audit/reports or
  contact the Secondary Reports Distribution Unit of the Audit Followup and
  Technical Support Directorate at (703) 604-8937 (DSN 664-8937) or fax
  (703) 604-8932.

  Suggestions for Future Audits

  To suggest ideas for or to request future audits, contact the Audit Followup and
  Technical Support Directorate at (703) 604-8940 (DSN 664-8940) or fax (703)
  604-8932. Ideas and requests can also be mailed to:

                    OAIG-AUD (ATTN: AFTS Audit Suggestions)
                    Inspector General of the Department of Defense
                          400 Army Navy Drive (Room 801)
                              Arlington, VA 22202-4704

  Defense Hotline

  To report fraud, waste, or abuse, contact the Defense Hotline by calling
  (800) 424-9098; by sending an electronic message to Hotline@dodig.osd.mil; or
  by writing to the Defense Hotline, The Pentagon, Washington, DC 20301-1900.
  The identity of each writer and caller is fully protected.




Acronyms
EMD                   Engineering and Manufacturing Development
FMECA                 Failure Modes, Effects and Criticality Analysis
FREST                 Fleet Replacement Enlisted Skills Training
FST                   Fleet Support Team
IPT                   Integrated Product Team
JAGMAN                Judge Advocate General Manual
LRIP                  Low-Rate Initial Production
MTBF                  Mean Time Between Failure
NAVAIR                Naval Air Systems Command
OPEVAL                Operational Evaluation
USD (AT&L)            Under Secretary of Defense for Acquisition, Technology, and
                         Logistics
         Office of the Inspector General of the Department of Defense
Report No. D-2002-114                                                     June 24, 2002
  (Project No. D2001LA-0124)

                         V-22 Osprey Hydraulic System

                                Executive Summary

Who Should Read This Report and Why? DoD civilian and military personnel
involved with the design and development of new systems will find these issues in
reliability data helpful in improving their own areas of product development.

Background. The V-22 Osprey Joint Advanced Vertical Aircraft (the V-22) is a
tiltrotor, vertical takeoff and landing aircraft, which was developed to fulfill multi-
Service operational requirements. The V-22 design incorporates advanced technologies
in composite materials, digital avionics, fly-by-wire controls, and survivability. It
operates as a helicopter for takeoffs and landings and, once airborne, converts to a
turboprop aircraft for distance flight. That conversion capability is accomplished
through the tilting or rotation of a nacelle mounted at the end of each wing. Each
nacelle is equipped with an engine and transmission that drives a rotor with a diameter
of 38 feet. The V-22 hydraulic system, which comprises three independent subsystems,
provides hydraulic power to the V-22 rotor system controls and control surfaces.

Results. Additional oversight and maintenance training measures were needed to
improve the reliability of the hydraulic system for the V-22 Osprey. The V-22 entered
the Low-Rate Initial Production phase in 1997 with a hydraulic system that performed
at reliability rates significantly lower than predicted in the design process. During the
Engineering and Manufacturing Development phase, the system achieved no better than
38.2 percent of the predicted reliability rate. The V-22 was produced with a less-than-
optimal hydraulic system because the V-22 Program Manager (PMA-275) did not
exercise sufficient oversight of the hydraulic system’s design: PMA-275 did not
specifically monitor the reliability rates of the hydraulic system’s performance. In
addition to previously mandated design changes, other actions are needed to ensure
sufficient management focus on the V-22 hydraulic system’s performance and
maintenance. A program to monitor the V-22 hydraulic system’s performance,
especially component reliability rates, on a continual basis will improve the reliability
of the hydraulic systems. Also, Bell Helicopter Textron, Inc., should amend course
materials for the V-22 maintenance course to include the unique characteristics and
hazards of the titanium hydraulic lines. Similarly, the Technical Study Guide Program
for Marine Medium Tiltrotor Training Squadron 204 should be amended to expand the
discussion of titanium hydraulic lines. (See the Finding section for the detailed
recommendations.)

Management Comments. The Assistant Secretary of the Navy (Research,
Development, and Acquisition) concurred with the recommendations. The Assistant
Secretary stated that new hydraulic system reliability predictions were established and a
dedicated team was established to monitor actual performance. The Navy was also
updating its Technical Study guide program to emphasize the unique characteristics and
considerations regarding conducting maintenance actions in the vicinity of titanium
hydraulic lines. See the Finding section of this report for a summary of management
comments and the Management Comments section for the complete text.

Management Initiatives. After a fatal accident in December 2000, the V-22 was
grounded and PMA-275 began several initiatives, including the establishment of the
Line Clearance Integrated Product Team and the Senior Hydraulic System Review
Team (the Senior Hydraulic Team), to identify and correct the hydraulic system
challenges facing the V-22.

   •   The Line Clearance Integrated Product Team was established to identify,
       document, and study line clearance issues in the V-22 nacelles. The team
       concluded that poor access, chafing (both under clamps and throughout the
       nacelle) because of insufficient clearances, and excessive maintenance hours per
       flight hour were major problems.

   •   The Senior Hydraulic Team was assembled to provide a thorough and
       independent technical review of the V-22 hydraulic system’s architecture,
       including system design and validation. The team concluded that the nacelle
       was a key problem area because of, among other factors, installation flaws, a
       lack of clearances, difficulty in inspecting hydraulic lines and installing or
       replacing components, and too many variances from one aircraft to another.
       Hydraulic line failure caused by chafing from a wire bundle was deemed a
       safety of flight issue. The team made numerous recommendations, to include
       prohibiting wire bundles from being clamped to the hydraulic lines.




                                           ii
Table of Contents

Executive Summary                                i


Background                                       1


Objectives                                       4


Finding
     Reliability of the V-22 Hydraulic System   5


Appendixes
     A.   Scope and Methodology                 18
     B.   Prior Coverage                        21
     C.   Learning Curve Calculations           22
     D.   Report Distribution                   24


Management Comments
     Department of the Navy                     27
   (Source: Bell Boeing)



Figure 1. The aircraft shown above illustrate the rotation of the V-22 nacelles,
converting the V-22 from helicopter mode to airplane mode (the top three aircraft) and
from airplane mode to helicopter mode (the bottom three aircraft).
Background
           The V-22 Osprey Joint Advanced Vertical Aircraft (V-22) is the world’s first
           tiltrotor, vertical takeoff and landing aircraft in production. Its design
           incorporates advanced technologies in composite materials, digital avionics, fly-
           by-wire controls,1 and survivability. The V-22 combines the vertical takeoff
           and landing characteristics of a helicopter with the speed and range of a
           turboprop aircraft. The V-22 operates as a helicopter for takeoffs and landings
           and, once airborne, converts to a turboprop aircraft for distance flight. That
           conversion capability is accomplished through the tilting or rotation of a nacelle
           mounted at the end of each wing. Each nacelle is equipped with an engine and
           transmission that drives a rotor with a diameter of 38 feet.

           The V-22 hydraulic system, which comprises three independent subsystems,
           provides hydraulic power to the V-22 rotor system controls and control
           surfaces. All three subsystems contain a network of hydraulic tubes and hoses
           (hydraulic lines) that supply hydraulic fluid and pressure to each subsystem’s
           respective components. The design results in a triply redundant hydraulic
           system, provided there are no failures in common hydraulic lines of the three
           subsystems. If a loss of hydraulic pressure or fluid is detected, the aircraft’s
           software, together with specially designed hardware, automatically isolates the
           defective system. However, the system is only doubly redundant along
           24 common hydraulic lines in each nacelle. The common lines are between the
           switching isolation valves, local switching-isolation valve, and the swashplate
           actuators. Because failures in those common hydraulic lines cannot be isolated,
           a failure of a common line degrades performance of a primary hydraulic system
           and the backup hydraulic system in that nacelle.

           The V-22 was developed to fulfill multi-Service operational requirements and
           has three variants:

                    •    the Marine Corps MV-22, used for combat assault and assault
                         support;

                    •    the Air Force CV-22, used for special operations missions; and

                    •    the Navy HV-22, used for combat search and rescue, special
                         warfare, and fleet logistical support.

           This report uses the term V-22 generically; the hydraulic systems are the same
           for all of the variants.

           History of V-22 Program Management. The V-22 Program started in
           December 1981 and was managed by the Army until it was transferred to the
           Navy in December 1982. When the program came under the Navy’s acquisition

1
    A fly-by-wire flight control system uses computers to transmit pilot inputs as electrical signals through
    wires to actuators that move the control surfaces that maneuver the aircraft. In contrast, a mechanical
    flight control system uses direct mechanical linkages to transmit pilot inputs to the control surfaces.



                                                        1
           management, the Naval Air Systems Command (NAVAIR) became the host
           command. The Program Executive Officer, Air Anti-Submarine Warfare,
           Assault, and Special Mission Programs, who reports to the Assistant Secretary
           of the Navy (Research, Development, and Acquisition), established the V-22
           Program Manager (PMA-275) to manage the V-22 Program. The primary
           mission of PMA-275 was to provide DoD operating forces with a fully
           developed, reliable, and supportable advanced vertical takeoff and landing
           aircraft capable of satisfying operational requirements.

           Oversight and execution of the V-22 acquisition program is accomplished using
           the Integrated Product Team (IPT)2 concept. The leadership team, an
           overarching IPT led by PMA-275, comprises representatives from various
           NAVAIR functional competencies. The leadership team focuses on the strategic
           direction of the V-22 Program and is augmented by functionally aligned,
           working-level IPTs. Each of those IPTs has a “Lead” and is staffed with a
           combination of PMA-275 employees and representatives from appropriate
           NAVAIR functional competencies. Together with their counterparts from the
           Osprey’s dual prime contractors, Bell Helicopter Textron, Inc., and Boeing
           Helicopters Division (Bell Boeing), the leadership team and working-level IPTs
           work jointly in support of the development, test and evaluation, procurement,
           initial support, and readiness improvement of the V-22.

           Progression of the V-22 Program. In 1986, the Navy obtained approval from
           the Defense System Acquisition Review Council, which was chaired by the
           Under Secretary of Defense for Acquisition and Technology (now the Under
           Secretary of Defense for Acquisition, Technology, and Logistics
           [USD(AT&L)]), to enter into the Full-Scale Development phase. The Navy
           awarded a contract to Bell Boeing to design and produce six aircraft for flight
           and ground testing. The first flight of the V-22 took place in March 1989. In
           October 1992, the Navy entered the Engineering and Manufacturing
           Development (EMD)3 phase, awarding Bell Boeing an EMD contract for four
           preproduction V-22 aircraft.

           In an April 25, 1997, Acquisition Decision Memorandum, the USD(AT&L)
           approved the Marine Corps variant of the V-22 to enter the Low-Rate Initial
           Production (LRIP)4 phase. The memorandum also delegated milestone decision


2
    An IPT is a functionally aligned team comprising representatives from all appropriate disciplines and
    assembled to work together to build successful and balanced programs, identify and resolve issues, and
    make sound and timely recommendations to facilitate decision-making.
3
    The objective of the EMD phase in the acquisition process is to translate the most promising design
    approach into a stable, interoperable, producible, and cost-effective design; to validate the
    manufacturing process; and to demonstrate system capabilities through testing. The intended output of
    the phase is, at a minimum, a preproduction system that closely approximates the final product,
    documentation necessary to enter the production phase, and test results that demonstrate the production
    product will meet stated requirements.
4
    LRIP is the production of a system in limited quantities to provide systems for additional operational
    test and evaluation, to establish an initial production base, and to permit an orderly increase in the
    production rate sufficient to lead to Full-Rate Production upon successful completion of operational
    testing.



                                                       2
           authority5 for the V-22 Program to the Navy. Since April 1997, 10 LRIP
           aircraft have been built and accepted into the V-22 Program. According to
           PMA-275, as of December 31, 2001, program costs for the V-22 were
           estimated at $46 billion (in FY 1986 dollars). Of that $46 billion, $40.7 billion
           was for the Navy and Marine Corps and $5.3 billion was for the Air Force.

           During its operational evaluation (OPEVAL),6 November 1999 through
           July 2000, the V-22 demonstrated that it could carry 24 combat-equipped
           soldiers or a 10,000-pound load, achieve true airspeed of 248 knots in flight,
           and travel 2,113 nautical miles with a single aerial refueling. However, in the
           “Combined Operational Test and Evaluation and Live Fire Test and Evaluation
           Report on the V-22 Osprey,” November 17, 2000, the Director, Operational
           Test and Evaluation concluded that the V-22 was operationally effective but was
           not operationally suitable. The Director stated that the V-22 “demonstrated
           marginal mission reliability.” The Director’s conclusion that the V-22 was not
           operationally suitable was based, in part, on the failure rates related to the
           hydraulic system experienced during the OPEVAL.

           On December 11, 2000, four Marines were killed when an LRIP V-22 crashed
           in Jacksonville, North Carolina, during a routine training mission. The Panel to
           Review the V-22 Program (the Panel),7 in its report of April 30, 2001, stated
           that, based on preliminary results from the Aircraft Mishap Board and the
           February 23, 2001, Judge Advocate General Manual investigation report (the
           JAGMAN Report), the mishap had resulted from a hydraulic line failure and a
           flight control system software anomaly that occurred when the pilot pressed the
           flight control reset button. The report of the Panel also stated that neither the
           failure nor the anomaly alone would have caused the accident, but the
           combination had resulted in a loss of flight control. As a result of the mishap,
           the Commandant of the Marine Corps and NAVAIR jointly suspended V-22
           flight operations on December 12, 2000.

           In May 2001, the USD(AT&L) reassumed the milestone decision authority for
           the V-22 Program. On December 21, 2001, the USD (AT&L) announced a
           number of decisions regarding the V-22. Specifically, the USD (AT&L) stated
           that test flights for the V-22 would resume in April 2002, provided that a joint
           Secretary of the Navy and USD (AT&L) review to “assess the basis and
           confidence” for resuming those flights did not disclose anything that would
           suggest the need to change that time frame. In addition, pending a review of the
           technical progress of the program during flight testing, the USD(AT&L)
           approved limited production at minimum sustaining levels.



5
    The individual designated, in accordance with criteria established by the USD(AT&L), to approve entry
    of an acquisition program into the next phase of the acquisition process.
6
    An OPEVAL is used to test and analyze a specific end item or system under Service operating
    conditions, as far as practical, to determine whether quantity production is warranted.
7
    The Panel, composed of two retired military pilots with combat flying experience, one aeronautical
    engineer from industry, and one aerospace engineer from academia, was chartered to examine the
    relevant factors related to safety and combat effectiveness of the V-22.



                                                      3
           The V-22 Program remains in the LRIP phase of the acquisition cycle. Of the
           four EMD aircraft produced, two are located at Naval Air Station Patuxent
           River, Maryland, for continued developmental testing in support of fostering the
           V-22 Program’s progression to Milestone III (Full-Rate Production). The other
           two EMD aircraft have been modified for use in the CV-22 development and
           systems integration program based at Edwards Air Force Base, California. Of
           the 10 LRIP aircraft accepted into the V-22 Program, seven8 are assigned to the
           Marine Medium Tiltrotor Training Squadron 204 (VMMT-204) at Marine Corps
           Air Station New River, North Carolina. The USD (AT&L) approved the V-22
           to resume flight testing, and on May 29, 2002 the V-22 flight testing resumed.


Objectives
           This project started as an audit assist to an investigation by the Defense Criminal
           Investigative Service, Office of the Inspector General of the Department of
           Defense. During that process, we determined that additional work was needed
           to assess the V-22 hydraulic system’s performance and we began this
           evaluation.

           The overall evaluation objective was to assess the hydraulic system of the V-22.
           Specifically, we reviewed the system’s performance throughout the Full-Scale
           Development, EMD, and LRIP phases of the acquisition process. In addition,
           we evaluated management actions as they related to the hydraulic system. See
           Appendix A for a discussion of the evaluation’s scope and methodology and
           Appendix B for prior coverage.




8
    LRIP V-22 (Bureau No. 165436) was lost in an April 8, 2000, mishap unrelated to hydraulics. LRIP
    V-22 (Bureau No. 165440) was lost in the December 2000 mishap. LRIP V-22 (Bureau No. 165433)
    was predestinated as a maintenance trainer and transferred in July 2001 to the V-22 Fleet Replacement
    Enlisted Skills Training.



                                                      4
                     Reliability of the V-22 Hydraulic System
                     The V-22 Osprey entered the LRIP phase in 1997 with a hydraulic
                     system that performed at reliability rates significantly lower than
                     predicted in the design process. During the EMD phase, the system
                     achieved no better than 38.2 percent of the predicted reliability rate.
                     The V-22 was produced with a less-than-optimal hydraulic system
                     because PMA-275 did not exercise sufficient oversight of the hydraulic
                     system’s design: PMA-275 did not specifically monitor the reliability
                     rates of the hydraulic system’s performance. As a result, the operational
                     suitability of the V-22 Osprey was adversely affected. In addition to
                     previously mandated design changes, other actions are needed to ensure
                     sufficient management focus on the V-22 hydraulic system’s performance
                     and maintenance.


Performance Criteria for the V-22
           Operational Requirements Document. The Joint Requirements Oversight
           Council of the Joint Staff approved the “Joint Operational Requirements
           Document for the Joint Multi-Mission Vertical Lift Aircraft” on April 4, 1995.
           Change 1 was published May 19, 1999. The document established minimum
           accepted performance requirements for assessing the V-22’s operational
           suitability. Operational suitability is the degree to which a system can be
           satisfactorily fielded, with consideration given to, among other factors,
           reliability.

           Specification Design. Revision C of NAVAIR Specification Design 572-1,
           “Appendix B for V-22 Reliability and Maintainability” (SD-572-1),
           September 13, 1995 (as modified October 2, 2000), requires the contractor to
           conduct a reliability9 program. SD-572-1 states that the Reliability Program
           Plan should include a “means for ensuring that the conclusions of reliability
           analyses result in appropriate changes to the equipment design to obtain the
           maximum inherent reliability.” SD-572-1 prescribes design thresholds for
           reliability and requires that reliability predictions be calculated. SD-572-1 also
           references and restates portions of Military Standard 785B, “Reliability for
           Systems and Equipment Development and Production,” which was initially
           published on September 15, 1980, and later modified on July 3, 1986, and
           August 5, 1988. Although Military Standard 785B was canceled on July 30,
           1998, SD-572-1 incorporates requirements of the standard’s Task 203 and
           Task 204.

                   Task 203, “Reliability Predictions,” prescribed that reliability
           predictions be calculated using failure rate data approved by, or provided by,


9
    Reliability refers to the probability that an item will perform its intended function for a specified
    interval under stated conditions.



                                                         5
        the procuring organization for a system, subsystem, and equipment to determine
        whether the mission reliability requirements could be achieved with the
        proposed design.

                Task 204, “Failure Modes, Effects and Criticality Analysis (FMECA),”
        specified that a systematic and documented analysis be made of the causes and
        effects of failures and of likely scenarios in which a component or equipment
        could fail. Task 204 further required that the FMECA be performed to a
        specified level (such as the subsystem, equipment, part, or module level) and
        consider, among other factors, criticality (the failure’s impact on safety),
        readiness, mission success, and demand for maintenance logistics support.

               Task 204 specified that a FMECA be completed concurrently with the
        design effort so that the design would reflect analysis conclusions and
        recommendations.

        In addition to the FMECA process, SD-572-1 states that mean time between
        failure (MTBF) tests should “be performed to quantify the realistic target field
        performance of the mature aircraft weapon system and subsystems at the 5-digit
        WUC [work unit code10].” The V-22 hydraulic system has a 5-digit work unit
        code. SD-572-1 also requires that whenever design changes occur or test results
        indicate a difference between the predicted MTBF and the actual MTBF, the
        predicted MTBF should be revised to reflect the design changes or the test
        results. Different factors can be used in MTBF tests, and the results are
        commonly used to express reliability rates. The MTBF test discussed in this
        report is the “Mean Flight Hours Between Failure—Design Controllable,”
        which provides reliability rates that are the result of total flight hours (one
        measure of aircraft life) divided by the total number of design-controllable
        failures11 during the measurement interval.


Reliability Rates
        The V-22 Osprey hydraulic system performed at reliability rates significantly
        lower than predicted by Bell Boeing. At best, during the EMD phase, the
        system achieved 38.2 percent of the predicted MTBF. (See Appendix C for a
        detailed explanation of our calculations, which incorporated learning curve



10
  The work unit code is a 2- to 32-character numeric or alphanumeric code usually assigned to each
 repairable end item to identify a system, group, installation-repairable subassembly, or part of an end
 item in a hierarchical structure. A five-digit work unit code is assigned to those items that maintenance
 personnel would normally remove, replace, test, adjust, or repair while performing maintenance on the
 weapon system. Included among those are items that require portable test or repair shop equipment to
 maintain.
11
  Design-controllable failures are faults directly related to the design of the system. For example, a
 failure caused by an event or events outside the control of the designer, such as a bird strike or a
 deliberate removal of an aircraft part solely for engineering analysis, does not qualify as a design-
 controllable failure.



                                                    6
theory to arrive at percentages of predicted MTBF achieved.) The design of the
hydraulic system was not changed significantly after it entered the EMD phase,
even though the system performed at rates well below predicted levels.

The V-22 hydraulic system is composed of three independent subsystems: the
primary Flight Control Hydraulic Systems, HYD-1 and HYD-2, and the Backup
and Utility System, HYD-3. Table 1 shows the predicted and measured
reliability rates of the three hydraulic subsystems and their respective hydraulic
lines.

             Table 1. V-22 Hydraulic System Reliability Rates (MTBF)

                       Predicted1                     Measured

Hydraulic                                  EMD       OPEVAL VMMT-204
Subsystem        60,000 FHs2 2,000 FHs 1,581.1 FHs3 804.5 FHs4 569.1 FHs5
    HYD-1            445            268        83          67           19
     Lines         1,219            762        99          81           24
    HYD-2            445            268        83          73           21
     Lines         1,263            789       132          89           26
    HYD-3            373            225        83          67           32
     Lines           755            472       113         115           38
1
  Predicted reliability rates were developed by Bell Boeing.
2
  Flight hours.
3
  Flight hours accumulated by EMD aircraft from December 1996 through
December 2000.
4
  Flight hours accumulated by LRIP aircraft during the OPEVAL, November 1999
through July 2000.
5
  Flight hours accumulated by LRIP aircraft assigned to VMMT-204 from March 2000
through December 2000 (excluding hours accumulated during the OPEVAL).


The predicted reliability rates for 60,000 flight hours (total flight hours for
mature aircraft) and 2,000 flight hours (total flight hours for less mature
aircraft) were developed by Bell Boeing, based primarily on historical
operational data from other types of aircraft, factoring in a developmental
learning curve. In the early stages of aircraft development, parts are expected
to fail at higher rates than when the aircraft has accumulated thousands of flight
hours. SD-572-1 notes that predicted reliability rates are to be revised
whenever a design change in the system configuration occurs or when test
results indicate a difference between the predicted and the actual MTBFs.

The measured reliability rates for the V-22 hydraulic system are the actual
MTBFs of the components of each subsystem. For example, LRIP aircraft used
for the OPEVAL accumulated a total of 804.5 flight hours and experienced
12 design-controllable failures of an HYD-1 component, resulting in a measured
reliability rate of 67 flight hours. The HYD-1 hydraulic lines had a reliability
rate of 81 flight hours. The lowest predicted reliability rate for HYD-1 was
268 flight hours; the lowest predicted reliability rate for HYD-1 hydraulic lines

                                          7
        was 762. Table 1 shows that the V-22 hydraulic subsystems and hydraulic lines
        were performing at reliability rates lower than those predicted by Bell Boeing.
        Table 1 also shows a decline in measured reliability rates between EMD aircraft
        and LRIP aircraft assigned to VMMT-204.


Compact Design of the Nacelle
        The V-22 nacelles, located at the end of each wing, house the aircraft’s engine
        and rotor system. The nacelles are densely populated with engine and rotor
        system components, including actuators, wire harnesses, and lines (including
        thin-walled titanium hydraulic lines12) that are intricately routed and in close
        proximity to one another. Because the hydraulic system is designed to operate
        at 5,000 pounds of pressure per square inch, it provides the opportunity to use
        smaller actuators and allows for a more compact packing of the nacelle. To
        achieve a lower aircraft weight, thin-walled titanium hydraulic lines are used in
        the nacelles and other locations throughout the V-22. Figure 2 illustrates the
        compact and heavily populated environment of the V-22 nacelles and identifies
        the frame station 400 as well as one of the many hydraulic line clamps, thin-
        walled titanium hydraulic lines, and wire harnesses within the V-22 nacelles.


                 Hydraulic                Thin-walled titanium
                 line clamp                  hydraulic lines




                                                                                      Wire
                                                                                     harness

                                                                                      Frame
                                                                                   station 400

            Figure 2. Outboard Right Nacelle of an LRIP Aircraft

        VMMT-204 maintenance personnel, the Line Clearance IPT, and the Panel
        indicated that the hydraulic system problems experienced by the V-22 Program
        were primarily caused by a compact nacelle design, which made it difficult to
        minimize the impact of vibration, and a manufacturing variance referred to as
        “artisan latitude.” Vibration and artisan latitude can result in hydraulic line
        chafing that degrades the reliability of the hydraulic system.

12
  Hydraulic lines on the V-22 are made of a titanium alloy known as Ti-3AL-2.5V; the lines are referred
 to as Ti-3AL-2.5V 5,000 psi [pounds of pressure per square inch] tubing or 5,000 psi titanium tubing.
 This report uses the term thin-walled titanium hydraulic line to refer to that hydraulic tubing.



                                                  8
        Vibration. All aircraft—both rotary-wing and fixed-wing—experience
        vibration. Of those two forms of aircraft, however, rotary-wing aircraft
        experience the most intense vibration because they beat down air to overcome
        gravity and stay aloft. Although the V-22 experiences vibration in both the
        airplane and helicopter modes, the greatest level of vibration occurs when
        converting between the two modes. In particular, the Fleet Support Team
        (FST)13 noted that the V-22 experienced extreme vibration levels in the nacelle
        areas. That vibration can lead to chafing, fretting,14 and galling.15

        Artisan Latitude. On the V-22, manufacturing variances occur primarily
        because of artisan latitude exercised by those who assemble aircraft. Artisan
        latitude refers to the ability of skilled workers to address conditions encountered
        while executing a task in their area of expertise. Two skilled workers may
        address an identical condition in two different ways. Conditions addressed by
        artisan latitude are usually of a minor nature and not specified in a blueprint or
        written instructions. Artisan latitude is a routine occurrence in any assembly
        process and usually has little impact on the finished product. However, the
        compact and heavily populated nacelles of the V-22 leave little or no room for
        workers to safely exercise artisan latitude. In addition, artisan latitude creates a
        lack of manufacturing repeatability that impacts logistics supportability,
        maintainability, and maintenance personnel training as well as degrades
        reliability by creating an unknown condition resulting from components that are
        not installed in a uniform configuration from one aircraft to another. A
        NAVAIR 3.0 Reliability-Centered Maintenance16 Audit, finalized in May 2001,
        acknowledged, based on interviews with Line Clearance IPT personnel, that
        each V-22 LRIP aircraft was delivered with a different nacelle configuration,
        including numerous variations in the location and routing of hydraulic lines.
        The Panel and the Line Clearance IPT noted the lack of manufacturing
        repeatability between aircraft, a phenomenon primarily caused by artisan
        latitude.

        Hydraulic Lines. Hydraulic lines on the V-22 are made of thin-walled
        titanium, a titanium alloy (Ti-3Al-2.5V) containing 94.5 percent titanium,
        3 percent aluminum, and 2.5 percent vanadium. Developed in the late 1950s,
        thin-walled titanium is the industry standard for aerospace hydraulic lines
        primarily because of its strength-to-weight ratio; that is, its ability to provide
        adequate strength levels with a simultaneous reduction in weight. However,
        thin-walled titanium has unique characteristics and hazards that must be
        carefully considered in system design and installation. Hydraulic lines made
        with thin-walled titanium are extremely strong but are susceptible to chafing and
        have low wear limits. Other potential problems include fretting and galling.

13
  The FST is an IPT assigned the responsibility to perform specified in-service engineering and logistics
 functions by the program manager.
14
  Fretting is caused by the combination of corrosion and wear, which is often seen in equipment with
 moving or vibrating parts.
15
  Galling is caused when the facing surfaces of two metal products meet. Excessive friction between the
 two surfaces can result in momentary adhesion and surface deterioration and can result in fretting.
16
  Reliability-centered maintenance is an analytical process used to identify and validate maintenance
 requirements of an aircraft weapon system to realize the reliability of the equipment at the least cost.



                                                     9
                Hydraulic Line Chafing. Hydraulic line chafing occurred when
        vibration caused hydraulic lines within the V-22 nacelle to rub against another
        surface, thereby causing the line to wear. Chafing is a common phenomenon
        among all aircraft and is not limited to hydraulic lines. However, chafing was a
        significant problem for hydraulic lines in the V-22 because of the extreme
        vibration levels encountered in the nacelles when the V-22 is operational and the
        difficulty of maintaining adequate clearance between hydraulic lines and other
        surrounding components, such as other hydraulic lines, wire bundles, nacelle
        partitions (including the frame station 400), and clamps used to secure the lines
        in the nacelle.

                Clamp Chafing. On the V-22, chafing at clamping points (clamp
        chafing) was exacerbated by sand and dirt ingestion. Specifically, after
        vibration caused sand and debris in the vicinity of a hydraulic line clamp to
        become ingested between the grommet and the hydraulic line, continued
        vibration caused the sand and debris to chafe the hydraulic line within the
        grommet. To alleviate clamp chafing, Bell Boeing issued an engineering order
        on December 7, 1998, that directed the inspection and Teflon (tape) wrapping of
        hydraulic lines at 31 clamp locations. During the OPEVAL, conducted after the
        engineering order was issued, the Multi-Service Operational Test Team
        (Operational Test Team) encountered clamp chafing on LRIP aircraft.
        According to maintenance personnel, the Teflon wrapping reduced clamp
        chafing but did not eliminate it. NAVAIR officials stated that clamp chafing has
        been the subject of a series of engineering studies since May 2001. As of
        January 2002, the studies had not determined an adequate solution for the clamp
        chafing or pitting17 experienced by the V-22.

        A Bell Boeing-prepared analysis of VMMT-204 hydraulic line maintenance
        actions from March 2000 through March 2001,18 covering 569.1 flight hours by
        the squadron’s nine19 LRIP aircraft, showed that 89 percent of all hydraulic line
        maintenance actions took place in the nacelles. Further, analysis of those
        actions attributed specifically to nacelle hydraulic line maintenance
        (140 maintenance actions that expended 664.2 maintenance hours) found that
        approximately 83 percent of those actions were caused by pitting or chafing.
        Table 2 shows a breakdown of the maintenance actions by problem.




17
  On the V-22, pitting is a corrosive process that occurs on the titanium lines at a clamping area wrapped
 in Teflon tape. The studies have not been able to replicate or determine the cause of the pitting.
18
  The December 2000 grounding of the V-22 did not halt maintenance actions, which continued as a
 result of thorough inspections and already pending maintenance actions.
19
  In addition to the 8 LRIP aircraft assigned to VMMT-204, the analysis included an LRIP aircraft
 assigned to the squadron for about a month before joining the V-22 OPEVAL.



                                                   10
     Table 2. VMMT-204 Nacelle Hydraulic Line Maintenance Actions
                  (March 2000 through March 2001)

                                                            Percent of
               Problem Requiring Action                      Actions

       Pitting under clamps (clamp chafing)                     27
       Chafing on wire harnesses                                26
       Chafing on lines or frame structures                     18
       Chafing on the frame station 400 baffle                  12
       Maintenance-induced errors                               10
       Leaking                                                   7

Though hydraulic lines run under the floorboards and other areas of the V-22
fuselage, VMMT-204 had not encountered hydraulic line chafing in those areas
to the same extent as in the nacelles. The Line Clearance IPT concluded that
the hydraulic line and clamp chafing experienced by the V-22, particularly in
the nacelle, was symptomatic of the contractor’s inability to maintain adequate
clearance between the hydraulic lines and other components when the V-22 was
operational.

The December 2000 Mishap. Chafing was cited as a causal factor in the crash
of a V-22 LRIP aircraft (Bureau No. 165440) on December 11, 2000. As of
December 10, 2000, the aircraft, accepted into the V-22 Program in
August 2000, had logged only 157.7 flight hours. The JAGMAN Report
concluded that the rigid common hydraulic line made of thin-walled titanium in
the left nacelle ruptured because the line chafed on wire harness W545 and was
a causal factor in the mishap. PMA-275, in concert with the V-22 FST and the
Hydraulics IPT, had established a wear allowance criteria of .002 inches for
hydraulic lines. According to the JAGMAN Report, chafing wore away
.007 inches of the ruptured lines .022-inch wall thickness.

The area of the nacelle where the hydraulic line and wire harness W545 are
located is difficult to access and is not subject to routine inspection. The
JAGMAN Report also stated that no squadron-level work had occurred in that
area on the mishap aircraft. Of the 365 maintenance actions performed by
VMMT-204 maintenance personnel on the mishap aircraft, 45 of the actions
took place in the left nacelle. However, no work had been performed in the
area of the hydraulic rupture.

According to the JAGMAN Report, a repeated chafing problem existed between
the nacelle hydraulic lines and other components among all remaining V-22
LRIP aircraft. The JAGMAN Report cited various Airframe Bulletins,
Hazardous Material Reports, and Quality Deficiency Reports from June 1999
through February 2001 that described a chafing problem of wire bundles and
hydraulic lines in the nacelles of the V-22. The JAGMAN Report also stated
that a VMMT-204 inspection of hydraulic lines found chafing conditions on all
eight aircraft. In addition, the VMMT-204 inspection of LRIP aircraft Bureau
No. 165441 found chafing on the same line that had ruptured in the mishap
aircraft. Bureau No. 165441 had been accepted into the V-22 program in
October 2000 and had only logged 83.7 flight hours.




                                   11
Aircraft 21 Nacelle Audit. In April 2001, the V-22 FST, in coordination with
PMA-275, concluded an audit of the physical configuration of LRIP aircraft
No. 21’s nacelles (the Aircraft 21 Nacelle Audit). At the time, LRIP
aircraft No. 21 was the next aircraft scheduled to be delivered to VMMT-204.
The objective of the Aircraft 21 Nacelle Audit was to assess the as-built (actual)
V-22 nacelle configuration with the as-designed (designed) configuration
specified in the blueprints. In addition, the audit identified and analyzed
instances where the nacelle design was problematic and required modification.
As part of the audit, four work groups studied the nacelles’ hydraulic, electrical,
structural, and documentation areas. The hydraulics group inspected all
hydraulic line installations in the nacelles, documented the results, including
discrepant conditions (variances between the actual and designed configurations)
and instances that might warrant a design change. The results of the Aircraft 21
Nacelle Audit provided V-22 Program officials with an indication of nacelle
configuration problems and inconsistencies of V-22 LRIP aircraft.

As part of the Aircraft 21 Nacelle Audit, nacelle hydraulic line installations
were inspected to document all variances with specification requirements. Only
138 (51 percent) of the 271 hydraulic lines inspected had been installed in
accordance with design specifications. For the remaining 133 hydraulic lines,
the hydraulics group identified 225 discrepancies between actual and designed
configurations and attributed each to its root cause. Those discrepancies and
root causes are shown in Table 3.

             Table 3. Discrepancies and Root Causes Identified by the
                    Aircraft 21 Nacelle Audit Hydraulics Group

                                                                   Number of            Percent of
     Root Cause                       Discrepancy                 Discrepancies           Total
    Design                Drawing error                                   1                   0
                          Drawing needed clarification                    3                   1
                          Design change needed                          144                  64
    Manufacturing         Not installed per blueprint                     8                   4
                          Workmanship                                    44                  20
    Other*                                                               25                  11

     Total                                                              225                 100
*
  Other includes instances such as an installed part that did not agree with the part specified in
the blueprint, or an installed hydraulic configuration deviation from either V-22 specific or
military hydraulic system design specifications.

Design Issues. Design issues were the root cause for 65 percent of all hydraulic
line discrepancies. The Aircraft 21 Nacelle Audit hydraulics group identified
144 discrepancies requiring a design change. Those changes could include
moving or rerouting a hydraulic line or moving a harness. The
144 discrepancies represented 64 percent of all discrepancies identified by the
hydraulics group during the audit.



                                            12
    Manufacturing Issues. Manufacturing issues were the root cause for
    24 percent of all hydraulic line discrepancies. The hydraulics group identified
    44 discrepancies (20 percent of all discrepancies) related to manufacturing
    workmanship problems. Those workmanship discrepancies were attributed to
    the “incorrect application of artisan latitude.”

    According to one engineer for PMA-275, the findings of the hydraulics group
    and the other groups were among the first indications that a fundamental
    redesign of the nacelle might be warranted. Subsequently, the Line Clearance
    IPT developed a plan to redesign the nacelles to address nacelle hydraulic
    problems.


Hydraulic Maintenance Training
    V-22 maintenance personnel assigned to VMMT-204, as well as those who
    served on the Operational Test Team, were aware of the unique hydraulic
    system challenges posed by the use of thin-walled titanium hydraulic lines in the
    compact configuration of the nacelles. However, the VMMT-204 Technical
    Study Guide Program for V-22 maintenance personnel did not specifically cover
    those challenges.

    Future V-22 maintenance personnel receive specialized V-22 maintenance
    training by attending the V-22 Fleet Replacement Enlisted Skills Training
    (FREST). FREST is an en route training program for specific weapon systems
    that provides training in familiarization, operation, and maintenance of the
    weapon system to be maintained. The V-22 FREST uses materials that are
    proprietary to Bell Boeing. V-22 FREST attendees have varying levels of
    maintenance training and include those with only the basic knowledge and skills
    required to perform basic maintenance on aviation systems at the squadron or
    organizational level as well as those with extensive maintenance experience
    gained through working on other aircraft platforms. Attendees, upon arrival at
    the V-22 FREST, complete a 3-day V-22 Aircraft Familiarization (Initial)
    Organizational Maintenance Course and then branch off into their specialized
    areas of V-22 maintenance training. Maintenance of the V-22 hydraulic system
    is included in the V-22 Airframes (Initial) Organizational Maintenance Course
    (the Airframes Course). Discussions with V-22 FREST officials and a review
    of the course materials revealed that the unique characteristics and hazards of
    thin-walled titanium hydraulic lines were only addressed verbally during the
    V-22 FREST.

    Although titanium lines are similar in appearance to stainless steel lines, they
    cannot withstand the same level of wear and tear. Bell Boeing should amend
    V-22 FREST materials and VMMT-204 should modify its Technical Study
    Guide Program to include coverage of the unique characteristics and hazards of
    titanium hydraulic lines to further institutionalize awareness.




                                       13
Oversight and Monitoring
        The V-22 Osprey entered the LRIP phase in 1997 with a hydraulic system that
        performed at reliability rates significantly lower than predicted in the design
        process. PMA-275 did not exercise sufficient oversight of the hydraulic
        system’s design: PMA-275 did not specifically monitor the reliability rates of
        the hydraulic system’s performance.

        During the EMD and LRIP phases, PMA-275 proactively monitored the
        aircraft’s overall reliability to ensure the aircraft met reliability threshold
        requirements critical to the V-22 Program’s progression to Milestone III
        (Full-Rate Production). PMA-275 also monitored frequently failing
        components. PMA-275 did not monitor performance of the hydraulic system to
        validate its predicted reliability. The Reliability IPT cited schedule and funding
        as factors that precluded the team from monitoring the performance of the
        hydraulic system. Furthermore, PMA-275 officials stated they did not track
        hydraulic system reliability at the component level because they believed that the
        risk associated with a failure of the system’s components was low. That risk
        assessment was based on the hydraulic system’s triple redundancy and the high
        reliability of the hydraulic system predicted by Bell Boeing. Although
        PMA-275 accepted the reliability rates predicted by Bell Boeing, PMA-275 did
        not validate those predictions with actual data to assess whether confidence in
        the hydraulic system was justified. The Panel’s report stated:
                The NAVAIR-detailed requirement for the V-22 specifies a total FCS
                [flight control system] reliability of one catastrophic failure in
                10 million flight hours.     Compliance with this requirement is
                demonstrated by analysis, which is the industry standard for this type
                of requirement. It is based on the system architecture (including
                redundancy), as well as predicted reliabilities for all components.

        Although there was no written charter, Hydraulics IPT officials stated their
        mission was to oversee and to ensure the proper functioning of the hydraulic
        system. Specifically, the Hydraulics IPT was responsible for oversight of
        qualitative testing of all hydraulic system parts and for conducting laboratory
        qualification testing of titanium hydraulic line damage criteria. However, like
        the Reliability IPT, the Hydraulics IPT did not proactively or otherwise monitor
        the hydraulic system’s measured reliability performance on EMD or LRIP
        aircraft. The Hydraulics IPT primarily responded to agenda items tasked by
        PMA-275 officials, as specified in annual Program Master Plans that detailed
        the anticipated Hydraulics IPT support to be provided to the V-22 Program.
        Although the Hydraulics IPT principally responded to PMA-275 taskings,
        hydraulic system problems were additionally brought to the Hydraulics IPT’s
        attention—by the FST, the integrated test team,20 Bell Boeing, and Hydraulics
        IPT members themselves. However, the Hydraulics IPT did not routinely


20
  The integrated test team is a team comprising Government and Bell Boeing personnel responsible for
 developmental test flying of the aircraft.



                                                 14
        receive reliability information on the hydraulic system components from
        PMA-275 officials or from the Reliability IPT. PMA-275 should immediately
        establish a program to monitor the V-22 hydraulic system’s reliability.


V-22 Program Initiatives
        After the December 2000 order grounding the V-22, PMA-275 began several
        initiatives, including the establishment of the Line Clearance IPT and the Senior
        Hydraulic System Review Team (the Senior Hydraulic Team), to identify and
        correct the challenges facing the V-22.

        Line Clearance IPT. The Line Clearance IPT was established to identify,
        document, and study line clearance issues in the V-22 nacelles. Aside from
        focusing on potential avenues to limit chafing by ensuring that proper line
        clearances exist in each nacelle, the IPT was particularly interested in chafing
        under clamps. Once fixes have been agreed upon and approved, all fleet
        aircraft would be retrofitted, aircraft already produced but awaiting delivery
        would be modified, and production line changes would be implemented to apply
        the fixes to production aircraft.21
        In August 2001, the results of the Line Clearance IPT’s “90 Day Review” were
        briefed to NAVAIR and to the USD(AT&L). The Line Clearance IPT
        concluded that poor access, chafing (both under clamps and throughout the
        nacelle) because of insufficient clearances, and excessive maintenance hours per
        flight hour were major problems. In addition, the IPT stated that excessive
        maintenance hours per flight hour were symptomatic of maintenance personnel
        having to address problems of exceedingly poor reliability of hydraulic system
        components, a heavily populated nacelle, and insufficient access, all aggravated
        by the vibration typically encountered by rotary-wing aircraft.

        Senior Hydraulic Team. The Senior Hydraulic Team was assembled to
        provide a thorough and independent technical review of the V-22 hydraulic
        system’s architecture, including system design and validation. The Senior
        Hydraulic Team comprised retired engineers and industry consultants. The
        Senior Hydraulic Team began its assessment August 7, 2001, and published its
        results and recommendations January 5, 2002. The team concluded that the
        nacelle was a key problem area because of, among other factors, installation
        flaws, a lack of clearances, difficulty in inspecting hydraulic lines and installing
        or replacing components, and too many variances from one aircraft to another.
        The hydraulic line failure caused by chafing from a wire bundle was deemed a
        safety of flight issue. The team recommended that wire bundles be prohibited
        from being clamped to the hydraulic lines. The Senior Hydraulic Team made
        numerous other recommendations, including updating the critical parts list;
        developing criteria for critical part design, test, and installation; performing a

21
  Production aircraft are new aircraft accepted from the contractor. They include all aircraft procured
 for operational or training purposes. Production aircraft do not include aircraft procured solely for
 experimental purposes.



                                                   15
    shaker test to locate chafing and ensure permissible line movement; and
    developing a tracking program for monitoring changes in clearances or
    configuration for hydraulic lines in the nacelle. Also, the Senior Hydraulic
    Team recommended that the re-design of the nacelle be accelerated; assembly of
    nacelle installations in the current configuration be stopped; and a plan be
    established to retrofit nacelle improvements into all existing aircraft.

    PMA-275, in response to the problems identified by the Line Clearance IPT and
    the Senior Hydraulic Team, as well as by the Panel, developed a comprehensive
    strategy for correcting those problems. For example, production of the V-22
    was reduced and a new developmental test, modification, and production plan
    was defined. The new plan is “event driven” as opposed to “schedule driven.”
    Key to the plan is completion of ongoing system laboratory tests, software
    upgrades, configuration modifications, and a comprehensive developmental
    flight test program that will thoroughly assess aeromechanical and reliability
    issues. The plan contains short-term and long-term actions that will improve
    overall nacelle configuration. Such actions include modifying internal nacelle
    components to meet hydraulic line clearance requirements, reduce chafing, and
    provide better physical access for inspection and maintenance of the nacelle.
    Other changes to be implemented include reducing the length of the common
    lines between the switching isolation valves and the swashplate actuators to
    reduce exposure of the lines to damage, designating those common lines as
    having “critical characteristics” as a means of ensuring quality during
    production and installation, and increasing the wall thickness of those common
    lines.


Conclusion
    The V-22 hydraulic system was designed with triple redundancy and its
    components had a high predicted reliability rate. Consequentially, PMA-275
    decided to monitor overall aircraft reliability and frequently failing components
    rather than monitor the reliability of the hydraulic system to validate its
    predicted reliability. In retrospect, risks were underestimated and the hydraulic
    system’s poor performance adversely affected the V-22’s operational suitability
    through the EMD and the LRIP phases. During those phases, the measured
    reliability rates of the V-22 hydraulic system were well below the predicted
    rates. Because PMA-275 proactively monitored only the aircraft’s overall
    reliability, the hydraulic system problems indicated by low reliability rates were
    not addressed. In addition to ongoing redesign efforts, additional measures are
    needed to ensure sufficient management focus on the V-22 hydraulic system’s
    performance and maintenance.




                                        16
Recommendations, Management Comments, and Audit
  Response
    1. We recommend that the V-22 Program Manager immediately establish a
    program to monitor the V-22 hydraulic system’s performance, especially
    component reliability rates, on a continual basis. The program should, at a
    minimum, clearly delineate managerial and monitoring responsibilities of
    the offices and teams involved in the development and oversight of the V-22
    Program.

    2. We recommend that the V-22 Program Manager direct Bell Helicopter
    Textron, Inc., to amend all course materials for the V-22 Aircraft
    Familiarization (Initial) Organizational Maintenance Course of V-22 Fleet
    Replacement Enlisted Skills Training to include coverage of the unique
    characteristics and hazards of titanium hydraulic lines.

    3. We recommend that the Commanding Officer, Marine Medium
    Tiltrotor Training Squadron 204 include coverage of the unique
    characteristics and hazards of titanium hydraulic lines in the squadron’s
    Technical Study Guide Program.

    Navy Comments. The Assistant Secretary of the Navy (Research,
    Development, and Acquisition) concurred with the recommendations and stated
    that it has already established new hydraulic system reliability predictions for
    the first, in a series of three planned, aircraft upgrades and has established a
    process to monitor and report actual performance throughout the execution of
    the V-22’s return-to-flight plan and continuing through fleet introduction. The
    Navy has also initiated action to modify MV-22 training modules for Initial
    MV-22 maintenance training to expand the modules’ discussions of the unique
    characteristics and considerations of the titanium hydraulic lines. Furthermore,
    the Navy is updating its Technical Study Guide Program to emphasize the
    unique characteristics and considerations regarding conducting maintenance
    actions on or in the immediate vicinity of the titanium hydraulic lines. In
    addition, the Navy is staffing a Technical Publication Deficiency Report that
    will incorporate hydraulic line unique characteristic advisories to “all
    maintenance tasks performed on and around hydraulic lines” into the V-22’s
    Interactive Electronic Technical Manuals.

    The Navy also provided specific comments on various statements in the draft
    report. See the Management Comments section for the complete text of the
    Navy comments.

    Audit Response. The Navy comments on the recommendations are responsive.
    We revised some statements in the draft report as a result of the Navy’s specific
    comments.




                                       17
Appendix A. Scope and Methodology
   We interviewed officials from the Office of the USD(AT&L). We visited
   PMA-275 and interviewed staff to understand how they manage, assess, test,
   and correct problems associated with the V-22 hydraulic system. We obtained
   their perspectives on hydraulic system challenges and information on their
   initiatives to correct those challenges. We met with organizations that test,
   maintain, and operate the V-22. We interviewed members of IPTs supporting
   the PMA-275, including Reliability, Hydraulics, Line Clearance, and Safety
   IPTs, to determine the nature of their support of the V-22 hydraulic system.
   We met with directors of the MV-22 and the CV-22 Integrated Test Teams to
   obtain their perspectives on hydraulic system challenges, PMA-275’s oversight
   of the hydraulic system, and initiatives to correct hydraulic system challenges.
   We interviewed Marine Corps and Air Force personnel who performed
   maintenance on the V-22 during the EMD phase and during the OPEVAL. We
   interviewed Marine Corps personnel at VMMT-204 about hydraulic system
   challenges on V-22 LRIP aircraft. We met with the commanding officers of
   VMMT-204 and of Detachment 1, 58th Operations Group, to gain their
   perspectives on the hydraulic system challenges faced by the V-22. We met
   with the V-22 FST that acts on behalf of PMA-275 and responds to VMMT-204
   maintenance problems or anomalies with its LRIP V-22s. We met with the
   commanding officer and instructors from the V-22 FREST of the Naval Air
   Maintenance Training Group to determine current and proposed curriculum
   coverage of hydraulic systems in established maintenance courses.

   To determine the nature, extent, and significance of V-22 hydraulic system
   challenges, we visited and interviewed officials at U.S. Marine Corps
   headquarters, NAVAIR, and VMMT-204.

   We analyzed EMD, OPEVAL, and VMMT-204 hydraulic system component
   reliability data through March 2001 that was obtained from Bell Boeing to
   determine the measured hydraulic system component reliability for each phase.
   We analyzed VMMT-204 hydraulic line maintenance data from March 2000
   through March 2001 to determine the types of problems requiring hydraulic line
   maintenance actions. We reviewed Naval Aviation Maintenance Discrepancy
   Reporting Program reports to determine the history of reported hydraulic system
   anomalies. We reviewed Chief of Naval Operations Instruction 4790.2H,
   “Naval Aviation Maintenance Discrepancy Reporting Program (NAMDRP),”
   June 1, 2001, to determine the established response times for acknowledging
   receipt of Naval Aviation Maintenance Discrepancy Reporting Program reports.
   We analyzed V-22 Integrated Test Team procedures to determine whether
   adequate policies and procedures were in place to govern the team’s discrepancy
   resolution and feedback process. We analyzed various return-to-flight plan
   documents to determine the steps the V-22 Program is taking to address
   hydraulic system challenges. We reviewed V-22 test reports of hydraulic
   system performance during the EMD and LRIP phases. We reviewed the
   results of the Aircraft 21 Nacelle Audit to determine the nacelle hydraulic
   system design and manufacturing problems identified. We reviewed Aviation
   Board of Inspection and Survey (now the NAVAIR Technical Assurance Board)


                                      18
           “Yellow Sheets” to determine the experienced reliability of hydraulic system
           components during developmental and operational testing. We also reviewed
           the Director, Operational Test and Evaluation, “Combined Operational Test and
           Evaluation and Live Fire Test and Evaluation Report on the V-22 Osprey,”
           November 17, 2000. We reviewed the V-22 functional maintenance plan to
           determine the scheduled maintenance requirements for the hydraulic systems and
           associated components. We reviewed the Panel’s report of April 30, 2001, and
           the JAGMAN Report, February 23, 2001, to determine the role hydraulic line
           chafing, artisan latitude, and Warnings, Cautions, and Advisories* had in
           causing the mishap. We reviewed an April 25, 1997, USD(AT&L) Acquisition
           Decision Memorandum that approved the V-22 Program’s LRIP phase. We
           reviewed the May 14, 2001, USD(AT&L) memorandum to the Secretary of the
           Navy to document the reassumption of V-22 milestone decision authority by the
           USD(AT&L). We reviewed a December 21, 2001, USD(AT&L) memorandum
           to the Secretaries of the Navy and the Air Force and the Commander in Chief,
           U.S. Special Operations Command that detailed the V-22 return-to-flight plan.
           We reviewed the V-22 Program Status Report to Congress, April 2002, to
           determine the status of ongoing initiatives in support of the V-22 return-to-flight
           plan.

           High-Risk Area. The General Accounting Office has identified several
           high-risk areas in DoD. This report provides coverage of the DoD Weapon
           Systems Acquisition high-risk area.

           Use of Computer-Processed Data. We relied on computer-processed data
           contained in contractor and Government databases (or systems) established to
           track maintenance on the V-22 during the EMD and LRIP phases of
           development without performing tests of those systems’ general and application
           controls to confirm the reliability of the data. Specifically, our conclusions on
           the V-22 hydraulic system’s measured reliability during the EMD and LRIP
           phases up to the December 12, 2000, grounding were based on measured
           performance reliability rates obtained from Bell Boeing through the V-22
           Reliability IPT.

           We did not validate the accuracy of the Bell Boeing-generated reliability rates
           because of their general acceptance by V-22 Program officials. Most significant
           among those was the Reliability IPT, which concurred that the Bell
           Boeing-generated reliability rates for V-22 hydraulic system components were
           accurate and reliable, with some minor qualifications. In addition, we did not
           assess or validate the accuracy of the measured reliability rates because nothing
           came to our attention during the evaluation that caused us to doubt the reliability
           of the computer-processed data used to determine those rates. Further, we did
           not find errors or discrepancies that would preclude the use of the computer-
           processed data to meet the evaluation objectives.

           Use of Technical Assistance. Using learning curve theory, members of the
           Quantitative Methods Division, Office of the Inspector General of the
*
    Warnings, Cautions, and Advisories are a series of the graphical, textual, and verbal messages that
    work in concert to succinctly pinpoint and communicate to the aircrew the root cause of an in-flight
    system failure or failures, and appropriate emergency procedures to correct those failure or failures.



                                                       19
Department of Defense performed calculations on the Bell Boeing-predicted
reliability rates and the measured reliability rates for the three hydraulic
subsystems and their corresponding lines. The computations by the Quantitative
Methods Division allowed comparison of the predicted and measured reliability
rates (see Appendix C). Members of the Technical Assessment Division, Office
of the Inspector General of the Department of Defense reviewed this report for
technical content.

Evaluation Dates and Standards. We performed this evaluation from May
2001 through April 2002 according to standards implemented by the Inspector
General of the Department of Defense. However, we did not attempt to meet
the planning fieldwork standards because the evaluation process began as an
audit assist to an investigation by the Defense Criminal Investigative Service,
Office of the Inspector General of the Department of Defense into allegations of
falsification of MV-22 aircraft maintenance and readiness records at
VMMT-204. In addition, our scope was limited in that we did not include tests
of management controls.

Contacts During the Evaluation. We visited or contacted individuals and
organizations within DoD. We also contacted contractor personnel through
their outside counsels. Further details are available on request.




                                   20
Appendix B. Prior Coverage
    During the last 5 years, the General Accounting Office and the Inspector
    General of the Department of Defense have issued five reports discussing the
    V-22. In addition, a four-member panel appointed by the Secretary of Defense
    issued a report on its independent review of the V-22 Program. Unrestricted
    General Accounting Office reports can be accessed over the Internet at
    http://www.gao.gov. Unrestricted Inspector General of the Department of
    Defense reports can be accessed at http://www.dodig.osd.mil/audit/reports.


General Accounting Office
    General Accounting Office Report No. GAO-01-369R, “Defense Acquisitions:
    Readiness of the Marine Corps’ V-22 Aircraft for Full-Rate Production,”
    February 20, 2001

    General Accounting Office Report No. GAO-NSIAD-98-13, “Navy Aviation:
    V-22 Cost and Capability to Meet Requirements Are Yet to Be Determined,”
    October 22, 1997


Inspector General of the Department of Defense (IG DoD)
    IG DoD Report of Investigation No. 200100549L-26-JAN-2001-03FA-PO/T,
    “Report of Investigation re: MV-22,” July 9, 2001

    IG DoD Report No. D-2000-174, “V-22 Osprey Joint Advanced Vertical
    Aircraft,” August 15, 2000

    IG DoD Report No. D-2000-115, “Protection of the V-22 Osprey Against RF
    Weapons (U),” April 24, 2000


Other
    “Report of the Panel to Review the V-22 Program,” April 30, 2001




                                      21
Appendix C. Learning Curve Calculations

Mean Time Between Failure
    As discussed in the Finding section, the MTBF test discussed in this report is
    the “Mean Flight Hours Between Failure—Design Controllable,” which
    provides reliability rates that are the result of total flight hours divided by the
    total number of design-controllable failures during the measurement interval.
    Table C-1 repeats Table 1 from the finding discussion.

                 Table C-1. V-22 Hydraulic System Reliability Rates (MTBF)

                             Predicted1                      Measured

    Hydraulic                                   EMD       OPEVAL VMMT-204
    Subsystem         60,000 FHs2 2,000 FHs 1,581.1 FHs3 804.5 FHs4 569.1 FHs5
        HYD-1             445             268         83          67           19
         Lines          1,219             762         99          81           24
        HYD-2             445             268         83          73           21
         Lines          1,263             789        132          89           26
        HYD-3             373             225         83          67           32
         Lines            755             472        113         115           38
    1
      Predicted reliability rates were developed by Bell Boeing.
    2
      Flight hours.
    3
      Flight hours accumulated by EMD aircraft from December 1996 through
    December 2000.
    4
      Flight hours accumulated by LRIP aircraft during the OPEVAL, November 1999
    through July 2000.
    5
      Flight hours accumulated by LRIP aircraft assigned to VMMT-204 from March 2000
    through December 2000 (excluding hours accumulated during the OPEVAL).


Learning Curve Theory
    Learning curve theory has traditionally been used in manufacturing industries.
    The theory assumes that due to the “learning” process, the cost per unit goes
    down with the increase in the number of units produced. In our calculations, we
    replaced the cost per unit with the average number of failures per flight hour,
    which, by theory, should go down as the number of hours goes up.

    We used the classic learning curve equation (yx=axb), where a is the cost (in
    this case, the average number of design-controllable failures per flight hour) of
    the first flight hour, x is the number of flight hours, yx is the average number of




                                                22
         failures of the xth flight hour, and b is the mathematical value of the slope of the
         learning curve (defined by b=log(slope)/log(2)—the “2” comes from the
         doubling factor effect of the learning curve).

         We used learning curve theory to calculate what the measured reliability rates
         should have been if the V-22 hydraulic system had achieved the rates predicted
         by Bell Boeing. We applied the learning curve theory to the Bell Boeing-
         predicted reliability rates. Using the classic learning curve equation, we
         determined the values for a and b that would result in the reliability rates Bell
         Boeing predicted for 60,000 and 2,000 flight hours. We then used those values
         to determine comparable predicted reliability rates for 1,581.1, 804.5, and
         569.1 flight hours (the flight hours measured for EMD, OPEVAL, and
         VMMT-204 aircraft, respectively). Table C-2 shows actual, measured rates of
         those aircraft and the results of our calculations, the calculated reliability rates.
         The calculated reliability rates are the rates the three hydraulic subsystems and
         their corresponding lines should have achieved if they had performed as
         predicted by Bell Boeing.

                     Table C-2. Measured and Calculated Reliability Rates

                           Measured                                    Calculated

Hydraulic    EMD      OPEVAL VMMT-204                        EMD      OPEVAL VMMT-204
Subsystem 1,581.1 FHs 804.5 FHs 569.1 FHs                 1,581.1 FHs 804.5 FHs 569.1 FHs
HYD-1              83         67           19                    259     234           222
 Lines             99         81           24                    738     672           641
HYD-2              83         73           21                    259     234           222
 Lines            132         89           26                    764     696           663
HYD-3              83         67           32                    217     197           187
 Lines            113        115           38                    457     416           397

         Table C-3 shows the percentages of predicted MTBF actually achieved by the
         EMD, OPEVAL, and VMMT-204 aircraft. As the table shows, the best
         percentage was realized by the Backup and Utility System (HYD-3) of the EMD
         aircraft and the worst was the hydraulic lines of one of the primary Flight
         Control Hydraulic Systems (HYD-1) of the VMMT-204 aircraft.
             Table C-3. Comparison of Predicted and Measured Reliability Rates
                            (percent of predicted rate achieved)
         Hydraulic              EMD                  OPEVAL            VMMT-204
         Subsystem           1,581.1 FHs             804.5 FHs         569.1 FHs

         HYD-1                   32.1                  28.6                8.6
          Lines                  13.4                  12.1                3.7
         HYD-2                   32.1                  31.2                9.5
          Lines                  17.3                  12.8                3.9
         HYD-3                   38.2                  34.1               17.1
          Lines                  24.7                  27.6                9.6


                                                23
Appendix D. Report Distribution

Office of the Secretary of Defense
Under Secretary of Defense for Acquisition, Technology, and Logistics
Under Secretary of Defense (Comptroller)/Chief Financial Officer
  Deputy Chief Financial Officer
  Deputy Comptroller (Program/Budget)

Joint Staff
Director, Joint Staff

Department of the Navy
Assistant Secretary of the Navy (Manpower and Reserve Affairs)
Assistant Secretary of the Navy (Research, Development and Acquisition)
Naval Inspector General
Auditor General, Department of the Navy
Program Executive Officer, Air Anti-Submarine Warfare, Assault, and Special
   Mission Programs
  V-22 Program Manager

Department of the Air Force
Assistant Secretary of the Air Force (Financial Management and Comptroller)
Commander, Air Force Special Operations Command
Auditor General, Department of the Air Force

Marine Corps
Commandant of the Marine Corps
Commanding Officer, Marine Medium Tiltrotor Training Squadron 204
Inspector General of the Marine Corps

Unified Commands
Commander in Chief, U.S. European Command
Commander in Chief, U.S. Pacific Command
Commander in Chief, U.S. Southern Command
Commander in Chief, U.S. Central Command
Commander in Chief, U.S. Special Operations Command




                                         24
Non-Defense Federal Organization
Office of Management and Budget

Congressional Committees and Subcommittees, Chairman and
  Ranking Minority Member
Senate Committee on Appropriations
Senate Subcommittee on Defense, Committee on Appropriations
Senate Committee on Armed Services
Senate Committee on Finance
Senate Committee on Governmental Affairs
House Committee on Appropriations
House Subcommittee on Defense, Committee on Appropriations
House Committee on Armed Services
House Committee on Government Reform
House Subcommittee on Government Efficiency, Financial Management, and
  Intergovernmental Relations, Committee on Government Reform
House Subcommittee on National Security, Veterans Affairs, and International
  Relations, Committee on Government Reform
House Subcommittee on Technology and Procurement Policy, Committee on
  Government Reform




                                         25
Team Members
The Readiness and Logistics Directorate, Office of the Assistant Inspector
General for Auditing of the Department of Defense prepared this report.
Personnel of the Office of the Inspector General of the Department of Defense
who contributed to the report are listed below.

Shelton R. Young
Donald A. Bloomer
Richard A. Brown
David A. Palmer
Michael J. Roark
Elizabeth L.N. Shifflett
Frank C. Sonsini
Dharam V. Jain
James Hartman
Kenneth H. Stavenjord
Chandra P. Sankhla
